                           Office of Inspector General
                          Corporation for National and
                                   Community Service




               AUDIT OF THE
      CORPORATION FOR NATIONAL AND
           COMMUNITY SERVICE’S
  FISCAL YEAR 2003 FINANCIAL STATEMENTS

             Audit Report Number 04-01
                  October 31, 2003




                      Prepared by:

              COTTON & COMPANY LLP
           333 North Fairfax Street, Suite 401
               Alexandria, Virginia 22314




This report was issued to Corporation management on November 14, 2003.
Under the laws and regulations governing audit follow up, the Corporation is to
make final management decisions on the report’s findings and
recommendations no later than May 14, 2004, and complete its corrective
actions by November 14, 2004. Consequently, the reported findings do not
necessarily represent the final resolution of the issues presented.
                                 Oftice of Inspector General
                       Corporation for National and Community Service

               Audit of the Corporation for National and Community Service's
                            Fiscal Year 2003 Financial Statements
                                     Audit Report 04-01




In accordance with the Government Corporation Control Act (3 1 U.S.C. $ $ 9101-lo), the Office
of Inspector General (OIG) engaged Cotton and Company LLP to audit the Corporation for
National and Community Service's fiscal year 3003 financial statements. This report presents the
results of the audit. In summary:

            Cotton and Company's opinion on the financial statements is unqualified.
            An unqualiiied opinion means that the financial statements present fairly, in
            all material respects, the financial pos~tionand results of operations of the
            Corporation.

            Cotton and Company considered certain matters involving the internal
            control over financial reporting and its operations to be a reportable
            condition. For the third consecutive year. the Corporation's monitoring of
            grantee activities has been considered a reportable condition. However,
            Cotton and Company and the OIG agree that this reportable condition, more
            specifically described in Exhibit 1, is not a material weakness.

             Cotton and Company found no instances of material non-compliance with
             laws and regulations that would have a direct and material effect on the
             Financial statements.'

As is our responsibility, the OIG helped plan the auditors' work, evaluated the procedures
performed, monitored the audit's progress, and reviewed the auditors' work papers supporting the
conclusions in this report. Our review of the auditors' work papers disclosed no instances where
Cotton and Company did not comply, in all material respects, with generally accepted
government auditing standards.

We provided a draft of this report to Corporation management for review and comment. The
Corporation's response indicates that the clean opinion received reflects the hard work over the
past year to improve the Corporation's operations and regain the trust of Congress. The
Corporation recognizes that more work needs to be done and is committed to continuously
improving its programs. The Corporation's response is presented in its entirety as Appendix A.




I A potential Anti-Deficiency Act violation was noted In the Fiscal Year 2002 Financial Statements Audit

Report. The Office of Inspector General issued an investigative report that found a violation existed. This
issue was resolved when President George W. Bush slgned the Strengthen AmeriCorps Program Act,
which applied retroactively to October 1, 2002. The Strengthen AmeriCorps Program Act also requires an
dependent annual audit of Corporation accounts relating to approved national service positions. The
rcsults of that audit are reported in OIC Report 04-03.
                                         auditors + advisors



                               INDEPENDENT AL'DTTORS' REPORT

Inspector General
Board of Directors
Corporation for National and Community Service


We have audited the accompanying Statement of Financial Position of the Corporation for National and
Community Service (Corporation) as of September 30. 2003, and the related Statements of Operations
and Changes in Net Position and Cash Flows for the year ended September 30, 2003. These financial
statements are the responsibility of Corporation management. Our responsibility is to express an
opinion on these financial statements based on our audit. The financial statements of the Corporation
as of September 30, 2002, were audited by other auditors, whose report, dated January 24, 2003,
expressed an unqualified opinion on those statements.

We conducted our audit in accordance with auditing standards generally accepted in the United States
of America and standards applicable to financial statement audits contained in Government Auditing
Stmdm-ds, issued by the Comptroller General of the United States. Those standards require that we
plan and perfom1 the audit to obtain reasonable assurance that the financial statements are free of
material misstatement. An audit includes examining. on a test basis. evidence supporting amounts and
disclosures in the financial statements. An audit also includes assessing accounting principles used and
significant estimates made by management, as well as evaluating overall financial statement
presentation. We believe that our audit provides a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Corporation at September 30,2003, and the results of its operations and
changes in its net position and cash flow for the year ended September 30,2003, in conformity with
accounting principles generally accepted in the United States of America.

In accordance with Governn~erztAuditing Standards, we have also issued our reports dated October 3 1,
2003, on our consideration of the Corporation's internal control over financial reporting and on our
tests of its compliance with provisions of laws and regulations. Our reports on internal control and
compliance are an integral part of an audit conducted in accordance with Government Auditing
St~znclrrrrlsand should be read in conjunction with this report in considering the results of our audit.

COTTON c5r COMPANY LLP



Alan Rosenthal, CPA
Partner

October 3 I,, 2003
Alexandria, Vlrg~nia



                           333 North Fairfax Street + Suite 401 + iuexmdria, Virginid 223 14
               703/836/6701+ F.U 703/836/0941+ \ww.cc~noscr~.cor\.~      + ncorrox@ccrrrilscpA.co~
                     Corporation for National and Community Service
                            Statements of Financial Position
                                   As of September 30
                                           (dollars in thousands)


                                                                          -
                                                                          2003                 2002
ASSETS
  Fund Balance with Treasury (Note 2)                               $     743,363         $     843,469
  Trust Investments and Related Receivables (Note 3)                      23 1,880              233,280
  Advances to Others                                                        49,279               59,195
  Accounts Receivable, Net (Note 4)                                          2,756                3,02 1
  Property and Equipment, Net (Note 5)                                         786                1,924
      Total Assets                                                  $    1,028,064        $   1,140,889


LIABILITIES
  Trust Service Award Liability     6)
  (;rants Payable
  Accounts Payable
  Actuarial FECA Liability (Note 9)
  Other Liabilities
  Accrued Annual Leave
  Commission Post-Service Benefits Liability (Note 7)
  Advances from Others
  ('apital Lease Liability (Note 8)
       Total Liabilities


Commitments and Contingencies (Notes 8 and 15)

NET POSITION
  [inexpended Appropriations
    Obligated
    Unobligated
   Cumulative Results of Operations
      Total Net Position (Note 10)


      Total Liabilities and Net Position




             The accompanying notes are an integral part of these financial statements.
                    Corporation for National and Community Service
                  Statements of Operations and Changes in Net Position
                          For the Years Ended September 30
                                         (dollars in thousands)


                                                                          -
                                                                          2003
REVENUES
  Appropriated Capital Used, excluding Trust Fund                  $     768,005
  Appropriations Received by the Trust Fund (Note 11)                     99,350
  Interest                                                                 9,693
  Revenue from Services Provided                                           7,288
  Other                                                                      605
      Total Revenues                                                     884,941


EXPENSES
  AmeriCorps
  National Senior Service Corps
  Learn & Serve America
      Subtotal
  Congressionally Earmarked Grants
  DVSA State Grants
  Office of Inspector General
      Total Expenses (Note 12)


NET OF REVENUES OVER EXPENSES

NET POSITION
  Net of Revenues over Expenses                                    $      (2,014)         $   (1 17,445)
  Change in Unexpended Appropriations, Net (Note 14)                    (142,026)                18,224
  Decrease in Net Position, Net                                         (144,040)              (99,22 1)
  Net Position, Beginning Balance
  Net Position, Ending Balance




             The accompanying notes are an integral part of these financial statements.
                           Corporation for National and Community Service
                                       Statement of Cash Flows
                               For the Year Ended September 30,2003
                                                (dollars in thousat~ds)




CASH FLOWS FROM OPER4TING ACTIVITIES

Net of Revenues over Expenses

Adjustments Affecting Cash Flow:
 Appropriated Capital Used
 Appropriations Received by the Trust
 Decrease in Accounts Receivable
 Increase in Interest Receivable
 Decrease in Advances


 Increase i n Accounts Payable, Other Liabilities and
    Advances from Others
 Increase In FECA and Annual Leave Liabilities
 Ikcrease in Commission Liability
 llecrease in Capital Lease Liability
 Decrease in Trust Liability
 Increase in Grants Payable


 Amortization of Premium/Discount on Investments
 Depreciation, Amortization, and Loss on
   Disposition of Assets


Total Adjustments                                                                                   (824,37 1)

Net Cash Used by Operating Activities                                                            S (826,385)
                                                                                                   (continued)




                    The accompanying notes are an infegrnlpart of fltesefinarlcial statements.
                          Corporation for National and Community Service
                                      Statement of Cash Flows
                              For the Year Ended September 30,2003
                                              (dollars in thorrsands)




CASH FLOWS FROM INVESTING ACTIVITIES

Purchase of Property and Equipment
Sales of Securities
Purchase of Securities
Net Cash Provided by Lnvesting Activities


CASH FLOWS FROM FINANCING ACTIVITIES

Appropriations Received
CanceledfRescinded Appropriations
Net Cash Provided by Financing Activities

Net Cash Provided by Operating, Investing, and Financing Activities

Fund Balance with Treasury, Beginning

Fund Balance with Treasury, Ending



Supplemental Disclosure of Cash Flow Information

  Interest Paid

Supplemental Schedule of Financing and Investing Activities

 Property and Equipment Acquired Under Capital Lease Obligations




                  The accontpanyirlg notes are an integral part of thesefinancial statements.




                                                    5
                           Corporation for National and Community Service
                                       Statement of Cash Flows
                               For the Year Ended September 30,2002
                                                (dollars irr tlrorisarrds)




CASH FLOWS FROM OPERATING ACTIVITIES

Net of Revenues over Expenses

Adjustments Affecting Cash Flow:

 Appropriated Capital Used
 Decrease in Accounts Receivable
 Decrease in Interest Receivable
 Increase in Advances


 Decrease in Accounts Payable, Other Liabilities and
   Advances from Others
 Decrease in FECA and Annual Leave Liabilities
 Ljecrease in Commission Liability
 Increase in Capital Lease Liability
 Increase in Trust Liabil~ty
 Increase in Grants Payable


 An~ortizationof PremiumlDiscount on Investments
 Depreciation, Amortization, and Loss on
   Disposition of Assets


Total Adjustments

Net Cash Used by Operating Activities

                                                                                                 (continued)




                    The accompanying notes ur-e an integral part of thesefinancial statements.
                           Corporation for National and Community Service
                                       Statement of Cash Flows
                               For the Year Ended September 30,2002
                                                 (dollars in thotcsarrds)




CASH FLOWS FROM INVESTING ACTIVITIES

Purchase of Property and Equipment
Sales of Securities
Purchase of Securities
Nct Cash Provided by Investing Activities


CASH FLOWS FROM FINANCING ACTIVITIES

Appropriations Received
CanceledIRescinded Appropriations
Net Cash I'rovided by Financing Activities

Nct Cash Provided by Operating, Investing, and Financing Activities

Fund Balance with Treasury, Beginning

F ~ n dBalance \vith Treasury, Ending



Supplemental Disclosure of Cash Flow Information

 Interest Paid

Supplemental Schedule of Financing and Investing Activities

 Property and Equipment Acquired Under Capital Lease Obligations




                   The accompanyitzg notes are    in   integral part of thesefinancinl stalenzents.




                                                       7
NOTES TO THE FINANCIAL STATEMENTS
NOTE I - SL:M.+i,4R Y O F SICNIFIC.4 NT A CCO L'NTINC POLICIES
A.   Basis of Presentation
Thrse financial statements have been prepared to report the financial position, results of operations, and cash flows
of the Corporation for National and Community Service (Corporation), as required by the Government Corporation
Control Act (3 1 USC 9106) and by the National and Community Service Act of 1990, as amended (42 USC 12651).
These financial statements have been prepared from the books and records of the Corporation in accordance with
rlccounting principles generally accepted in the United States of America (GAAP) as applicable to Federal
corporations and include the Corporation's activities related to providing grants and education awards to eligible
participants. The Corporation is not subject to income tax.

Thc pixxipal financ~alstatements of the Corporat~onare the:

         Statement of Financial Position;

         Statenlent of Operations and Changes in Net Position; and

         Statement of Cash Flows.

The notes to the financial statements are considered an integral part of the financial statements

B. Reporting Entity

The Corporation was created by the National and Community Service Trust Act of 1993 (Public Law 103-82,42
US(' 1265 1) The Corporation provides grants and other incentives to States, local municipalities, and not-for-profit
organizations to help conlmunities meet critical challenges in the areas of educat~on,public safety, human needs,
and the en\.~ronn~entthrough volunteer service. The Corporation oversees three national service initiatives:

         AmeriCorps is the national service program that annually engages Americans of all ages and backgrounds
         In hll-time and sustained part-time community service and provides education awards in return for such
         service.

         The National Senior Service Corps is a network of people age 55 and older who participate in the Foster
         Gra~iparm  t Progr-nm, the Senior Conlpmion Progranl, and the Retired and Senior V o l ~ ~ n t eProgram.
                                                                                                         er
         These programs tap the experience, skills, talents, and creativity of America's seniors.

         Learn & Serve America supports and promotes service learning in schools, universities, and communities.
         Through structured service activities that help meet community needs, nearly one million students improve
         their academic learning, develop personal skills, and practice responsible citizenship.

Together, these initiatives promote the ethic of service and help solve critical community problems in every State,
many Indian rribes, and most U.S. territories.

C . Budgets and Budgetary Accounting
The activ~tiesof the Corporation are primarily funded through two separate appropriation bills. One is the
LaboriHealth and Human Services bill, which h n d s Domestic Volunteer Service Act (DVSA) programs. The
DVSA appropriation is available for obligation by the Corporation for one fiscal year only.

The second is the Veterans Affairs, Housing and Urban Development, and Independent Agencies bill, which funds
National and Community Service Act (NCSA) programs. The NCSA appropriation is available for obligation by the
Corporation over two fiscal years.

Both the DVSA and the NCSA appropriations fund a part of the Corporation's costs for administrative operations.
In addition, part of the NCSA appropriations are provided on a no-year basis for the National Service Trust (the
Trusl), a h n d within the Corporation primarily used to provide education awards to eligible participants. The Trust
prov~desawards for AmeriCorps members under ArneriCorps*State and National, AmeriCorps*NCCC, and
AmeriCorps*VISTA as well as for the AmeriCorps Education Award Program, where sponsoring organizations are
responsible for providing member subsistence and other costs, and the Corporation provides an education award and
a small amount for administrative costs.

D. Basis of Accounting

Transactions are recorded in the accounting system on an accrual basis and a budgetary basis. Under the accrual
method of accounting, revenues are recognized when earned and expenses are recognized when a liability is
incurred, without regard to receipt or payment of cash. Appropriations are considered earned for the Corporation's
National Service Trust Fund and are recognized as revenue when received in the Trust Fund.

The recognit~onof budgetary accounting t~ansactionsis essential for compliance with legal constraints and controls
over the use of Federal funds. Budgetary accounting principles are designed to recognize the obligation of funds
acccrd~ngto legal requirements, which in many cases is prior to the occurrence of an accrual-based transaction.
Thus, the financ~alstatements differ from other financial reports submitted pursuant to Office of Management and
Budget directives for the purpose of monitoring and controlling the use of the Corporation's budgetary resources.

E. Fund Balance with T r e a s u r y

The Corporation does not maintain cash in commercial bank accounts. Cash receipts and disbursements are
processed by the U.S. Treasury. The Fund Balance with Treasury represents annual, multi-year, and no-year funds,
whlzh are maintamed in appropriated and hust funds that are available to pay current and future commitments.

Funds maintained in the National Service Trust are restricted for use in paying service awards earned by eligible
part~cipantsas well as interest forbearance, and are not available for use in the current operations of the Corporation.

The majorit) of the funds received from individuals and organizations in the form of gifts and donations for the
support of service projects are restricted for a particular use.

F. T r u s t Investments a n d Related Receivables

By law, the Corporation invests funds, which have been transferred to the Trust, only in interest-bearing Treasury
obligations of the United States. These Treasury obligations are referred to as market-based specials, which are
s i m ~ l a to
            r government securities sold on the open market, and consist of Treasury notes, bonds, bills and one-day
certificates.

The Corporation classifies these investments a s held-to-maturity at the time of purchase and periodically reevaluates
such classification. Securities are classified as held-to-maturity when the Corporation has the pos~tiveintent and
abihty to hold securities to maturity. Held-to-maturity securities are stated at cost with corresponding premiums or
discounts amortized over the life of the investment to interest income. Premiums and discounts are amortized using
the effective interest method.

Interest receivable represents amounts earned but not received on investments held at year-end. Prepaid interest is
the amount of interest earned on a security since the date of its last interest payment up to the date the security is
purchased by the Corporation. Such interest, if any, at year-end is included in the interest receivable balance.

G . Advances to O t h e r s

The Corporation advances funds, primarily in response to grantee drawdown requests, to facilitate their authorized
national and community service and domestic volunteer service activities. The cash payments to grantees, in excess
of amounts earned under the terms of the grant agreements, are accounted for as advances. At the end o f the fiscal
year, the totail amount advanced to grantees is compared with the Corporation-funded amount earned b y the
grantees. Grantee expenses are determined from reports submitted by the grantees. For those grantees with
advances exceeding expenses, the aggregate difference is reported as the advance account balance.
H. Accounts Receivable

Accounts receivable represents amounts due to the Corporation primarily under Federal and non-Federal reimbursable
agreements, grantee audit resolution determinations, and outstanding travel advances due horn employees. These amounts
are reduced by an allowance for uncollectible accounts based on the age of each past due account.

I.   Property and Equipment

The Corporation capitalizes property and equipment at historical cost for acquisitions of $10 thousand or more, with
an estimated useful I ~ f ethat extends beyond the year of acquisit~on.The assets reported include telephone
equ~pment,computer systems equipment, copiers, computer software, furniture, and assets under capital leases.
These assets are depreciated (or amortized) on a straight-line basis over estimated useful lives ranging fiom two to
10 ),ears, using the half-year convention. Normal ma~ntenanceand repair costs on capitalized property and
equipment are expensed when incurred.

J. Trust Service Award Liability

The Trust service award liability represents unpaid earned, and expected to be earned, education awards and eligible
inte~estforbearance costs, which are expected to be used. These amounts relate to participants who have completed
servlce or are currently enrolled in the program and are expected to earn an award, based on the Corporation's
historical experience.

K. Grants Payable

Grants are nude to non-profit organizations, educational institutions, states, municipalities, and other external
organizations. Grants become budgetary obligations, but not liabilities, when they are awarded. At the end of each
fiscal year, the Corporation reports the total amount of unreimbursed authorized grantee expenses, earned under the
terms of grant agreements, as grants payable.

L.   Accounts Payable

The Corporat~onrecords as liabilities all amounts that are likely to be paid as a direct result of a transaction or event
that has already occurred. Accounts payable represents amounts due to both Federal and non-Federal entities for
goods and sertices received by the Corporation, but not paid for at the end of the fiscal year.

R.I. ,Actuarial FECA Liability

The Federal Employees' Compensation Act (FECA) provides income and medical cost protection to covered
Federal civilian employees injured on the job, employees who have incurred a work-related occupational disease,
and beneficiaries of employees whose death is attributable to a job-related injury or occupational disease. Claims
incurred for benefits for Corporation employees under FECA are administered by the Department of Labor (DOL)
and later billed to the Corporation. The Corporation's actuarial liability for workers' compensation includes costs
incurred but unbilled as of year-end, as calculated by DOL, and is not funded by current appropriations.

N. Other Liabilities

Other liabilities include amounts owed but not paid at the end of the fiscal year for payroll and benefits; VISTA
stipends; and the portion of the liability for Federal Employees' Compensation Act charges incurred and billed but
unpa~d.

0. Accrued Annual Leave

Annual leave is accrued as a liability based on amounts earned but not used as of the fiscal year-end. Each year, the
balance in the accrued annual leave account is adjusted to reflect current year pay rates and leave balances. Annual
leave is hnded from current appropriations when used. As unused annual leave is used in the future, financing will
be obtained from appropriations current at that time. Sick leave and other types of non-vested leave are expensed
when used.
P. Con~missionPost-Service Benefits Liability

The Commiss~onpost-service benefits liability represents unpaid earned educational benefits incurred by the former
Conlmiss~onon National and Community Service, which has been managed by the Corporation since 1994. This
liab~lity,more fblly discussed in Note 7, is funded by the Corporation when a request for payment is made.

Q. Advances from Others

Advances from others consist of advances from other government agencies related to interagency agreements the
Corporation entered into to provide services to those agencies.

R. Net Position

Net position is composed of ur~expendedappropriations and cumulative results of operations. Unexpended
appropriations are funds appropriated and warranted to the Corporation that are still available for expenditure as of
the end of the fiscal year. Cumulative results of operations represent the net differences between revenues and
expenses from the inception of the Corporation.

S.   Revenues

     Appropr-in fed Capital Used

The Corporation obtains funding for its program and operating expenses through annual and multi-year
appropriations, Appropriations are recognized on an accrual basis at the time they are used to pay program or
admmistrative expenses, except for expenses to be funded by future appropriations such as earned but unused annual
leave. Appropriations expended for property and equipment are recognized as used when the property is purchased.
Funds not used for eligible expenses within the allowed time must be returned to Treasury. Appropriations received
for the Corpol-ation's Trust are recognized as revenue when received in the Trust Fund. Trust appropriations do not
expire with the passage of time and are retained by the Corporation in the Trust until used for eligible education
senllce award purposes.



Interest incon~eis recognized when earned. Treasury notes and bonds pay interest semiannually, based on the stated
rate of interest. Interest earned on Treasury bills is recognized at maturity. Interest income is adjusted by
amol tization of premiums and discounts using the effective interest method.

     Rci~enzteft-om Services Provided

The Corporation also receives income from reimbursable service agreements that is recorded as revenue from
services provided. Revenue from services provided is recognized when earned, i.e., goods have been delivered or
services rendered.

     Other- Rel.mrre

Other revenue consists of gifts and donations for the support of service projects from individuals and organizations.

T. Retirement Benefits

The Corporation's employees participate in either the Civil Service Retirement System (CSRS) or the Federal
Employees Retirement System (FERS). FERS was established by the enactment of Publ~cLaw 99-335. Pursuant to
this law, FERS and Social Security automatically cover most employees hired after December 31, 1983. Employees
hired prior to January 1, 1984, elected to join FERS and Social Security or remained in the CSRS.

For employees covered by CSRS, the Corporation contributes 8.5 1 percent of their gross pay towards retirement.
For those employees covered by FERS, the Corporation contributes 11.50 percent of their gross pay towards
retirement. Ernployees are allowed to participate in the Federal Thrift Savings Plan (TSP). For employees under
FERS, the Corporatlon contributes an automatic one percent of basic pay to TSP and matches employee
contributlor~sup to an additional 4 percent of pay, for a maximum Corporatlon contribution amounting to 5 percent
of pay. Employees under CSRS may participate in the TSP, but will not receive either the Corporation's automatic
or matching contributions.

The Corporation made retirement contributions of $791 thousand and $9.40 thousand to the CSRS Plan, and $5,721
thousand and $5,424 thousand to the FERS and TSP Plans In fiscal years 2003 and 2002, respectively.

U. Use of Estimates

The preparation of financial statements requires management to make estimates and assumpttons that affect the
reported amounts of assets and liabilities, the disclosure of contingent assets and liabilities at the date of the financial
statements, and the reported amounts o f revenues and expenses during the reporting period. Actual results could
differ from these estimates.


NOTE 2 - FUND BAL,4NCE WITH TREASURY
U.S. Government cash is accounted for on an overall consolidated basis by the U.S. Department of Treasury. T h e
Fund Balance with Treasury line on the Statement of Financial Position cons~stsof the following:
         Appropriated F u n d s - Appropriated h n d s are received through congressional appropriations to provide
         financing sources for the Corporation's programs on an annual, multi-year, and no-year basis. The h n d s
         are \van-anted by the United States Treasury and apportioned by the Office of Management and Budget.
         T r u s t F u n d s -Trust Funds are accounts designated by law for receipts earmarked for specific purposes
         and for the expenditure of these receipts. Funds from the Corporation's Trust Fund may be expended for
         the purpose of providing an education award o r interest forbearance payment and must always be paid
         directly to a qualified institution (college. university, or other approved educational institution, or a lending
         instrtution holdlng an existing student loan) as designated by the participant, as lvell as awards under the
         President's Freedom Scholarship Prograln.
         Gift F u n d s - Gift Funds are funds received from lndlv~dualsand organizations a s donations in furtherance
         of the purposes of the natlonal service la\vs.

                                   F u n d Balance with T r e a s u r y a s of September 30
                                                  (dollars in thousands)


         Type                  Unrestricted     Restricted       Total             Unrestricted     Restricted      Total
 Appropriated Funds              $742,565            $ -         $742,565            $843,179            $   -     $843.179
 TI% Funds                                -           146              146                     -              88          88
 Glft Funds                              15           63 7             652                     58            144        202
 Total                           %742.580            $2111       i%Z&ida             $843.237            %1l2      %843.469

NOTE 3 - TRUST INVESTMENTS AND RELATED RECEIVABLES
The composition o f Trust Investments and Related Receivables at September 30 is as follows:


                  T r u s t Investments a n d Related Receivables as of S e p t e m b e r 30
                                           (dollars in thousands)
                                                                             2003                    2002
 Investment*, Carrylng Value                                              $230,262                  $23 1,754
 Investment and Interest Receivable                                              1,618                  1,526
 Total                                                                       %231.880               $233.280
                       Amortized Cost and Fair Value of Investment Securities as of September 30
                                                (dollars in thousands)
                                      2003                                                2002
                 Amortized Unrealized Unrealized          Fair     Amortized Unrealized Unrealized                         Fair
    Securities     Cost        Gains       (Losses)      Value         Cost         Gains      (Losses)                    Value
    Notes         $175,244       $5,648      $ -       $180,892      $162,672        $10,499     $ -                      $173,171
    Bdls            47,019             4         -        47,023        60,75 1          199         -                      60,950
    Bonds            7.999          5 70         -          8,569        8,33 1          755         -                       9,086
    Total          $230.262          $6.222$-$236484$231.754%L1.453%-%243307

At September 30, 2003, the notes held at year-end had an interest rate range of 0.80% to 10.75% and an outstanding
maturity period of approximately one day to almost two and a half years. The interest rate on the bond was 10.75%
and had a maturity period of approximately two and a half years. The bills held at year-end had an Interest rate
range of 0.80% to 0.95% and were all due to mature within 30 days. The par values of these investments range from
$1,5 17 thousand to $29,957 thousand.

As required by the Strengthen AmeriCorps Program Act, beginnmg in fiscal 2003 the Corporation has set aside in
reserve a portion of the funds appropriated to the Trust in the event that its estimates used to calculate obligational
amounts for education awards prove to be too low. As of September 30, 2003, $10 million of the Corporation's
~nvestmentaccount has been set a s ~ d efor t h ~ sreserve.

Investments held at Septembel 30 mature accordlng to the followmg schedule.

                               Maturation of Securities Held as of September 30
                                            (dollars in thousands)
                                                    2003                                   2002
                                         Amortized          Fair               Amortized              Fair
     Held-to-Maturity Securities           Cost             Value                Cost                Value
    Due in 1 year or less                  $156,108         $157,360              $1 12,554           $1 13,765
    Due after 1 year up to 5 years           74,154           79,124                1 19.200           129,442
    Total                                     $230.262      %236.484                %231.754          %243.207



NOTE 4 - ACCOUNTS RECEIVABLE, NET
I                                                                                                          I
                               Accounts Receivable as of September 30
                                        (dollars in thousands)
                                                                            2003                   2002
    Accounts rece~vable                                                    $3,248                 53,246
    Less: allowance for loss on receivables                                   492                    225
    Accounts Receivable, Net                                               $2.756               $3.021
NOTE 5 - PROPERTY AND EQUIPMENT, NET

                             General Property and Equipment as of September 30
                                            (dollars in thousands)
                                              2003                                           2002
                   Service                    Less:            Net                           Less:         Net
                     Life                  Accumulated        Book                        Accumulated     Book
  Major Class      (Years)        Cost     Depreciation       Value          Cost         Depreciation    Value
 Equipment          3-10         5 1,998         $1,676         $322         $1,998             $1,458     $ 540
 Capital leases       3-5            164            123            41           164                 92         72
 ADP software          2           5,042          4,6 19         423          5,042              3,730      1,312
 Total                           $7.204            $6.418        $286        k%L2!B            $5.280      $1.924


NOTE 6 -SERVICE AWARD LIABILIT1'- NATIONAL SERVICE TRUST
Individuals who successfully complete terms of service in AmeriCorps programs earn education awards, which can
be used to make payments on qualified student loans or for educational expenses at qualified educational
institutions. The awards, which are available for use for a period of up to seven years after the benefit has been
earned, are paid from the National Service Trust. The Trust also pays forbearance interest on qualified student
loans during the period members perform community service as well as awards under the President's Freedom
Scholarship Program. The award liability components related to education awards and interest forbearance have
been adjusted, based on historical experience, to reflect the fact that some eligible participants may not use these
benefits. The service award liability was composed of the following as o f September 30:


                               Service Award Liability as of September 30
                                         (dollars in thousands)
                                                                                2003                 2002
 Education awards                                                            $707,9 19             $603,353
 Interest forbearance                                                           24,37 1              22,269
 President's Freedom Scholarship Program                                        14,200               1 1,305
 Tola1 estimated service award liability                                      746,490               636,927
 Leas: cumulat~veawards pald                                                  5 15,868              405,498
1 Total                                                                     $t30.622               $231.429

The net service award liability as of September 30, 2003, decreased by approximately $807 thousand from the net
service award liability as of September 30, 2002. This decrease was largely due to fewer member enrollments
during the year and the continuing payments of earned education awards.


NOTE 7 - POST-SERVICE BENEFITS LIABILITY, COMMISSION ON NATIONAL & COMMUNITY
SERVICE
The Commission on National and Community Service (Commission) was merged into the Corporation for National
and Community Service during fiscal year 1994. With this merger, the Corporation became responsible for all
Commission liabilities, including those for post-service benefits.

Post-service benefits liabilities from the former Commission's operations differ from those originating within the
Corporation in three significant respects: ( 1 ) the grantee, rather than an agency of the Federal g o v e m e n t , is
responsible f ~ making
                 r       post-service award payments; (2) the portion of these awards which is funded b y the Federal
government is specified in each grant agreement, with any remaining amount funded by the grantee; and (3) the
post-service period during which an award is available for use was established by each program grantee, rather than
set at seven years for all awardees.
The post-service benefits liabihty associated with the former Commission is estimated based on a review of ~ t s
grants that authorize post-service benefits. Amounts shown below represent the aggregate maximum liability under
the assumpt~onthat all funds obligated for post-service benefits remain payable to grantees for this purpose until
they are drawn down or the period of award availability has expired. As of September 30, 2003, all former
Conlmission awards expired.
                                                     ppppp




            Commission Post-Service Benefits Liability as of September 30
                                   (dollars in tltousands)
                                                               2003                     2002
 Est~matedl ~ a b ~ las
                     ~ tof
                        y prevlous year-end                    $184                     $662
 L e s drawdowns and adjustments                               2                        1
 Potent~aleducat~onawards                                       184                      66 1
 Leas. award explratlons                                        184                      477
 Total                                                                                  &L@


NOTE 8 - CAPITAL AND OPERATING LEASES
A. Capital Leases
The Corporation has entered into lease agreements for copy machines. These leases vary from 3 to 5 year terms and
are deemed to be capital leases. The costs of the copiers have been recorded as property and equipment (also see
Note 5). The following is a schedule by year of the future minimum payments under these leases:

                      Capital Leases Future Minimum Due as of September 30
                                       (dollars in thousands)
                                                                       2003                       2002
 Fiscal Year 2003                                                               $   -              $4 1
 Fiscal Year 2004                                                                13                 13
 Fiscal Year 2005                                                                12                 12
 Fiscal Year 2006                                                                11                 12
 Fiscal Year 2007                                                                -9                  9
 Total future minimum lease payments                                             45                 87
 Less: amounts representing interest                                              6                 12
 Total                                                                          $22

B. Operating Leases
The Corporation leases office space through the General Services Administration (GSA). GSA charges the
Corporation a Standard Level Users Charge that approximates commercial rental rates for similar properties. NCCC
also leases housing facilities for its campuses. Additionally, the Corporation leases motor vehicles on a n annual
basis through GSA under an Interagency Fleet Management Service agreement for the National Civilian Community
Corps. Commitments of the Corporation for future rental payments under operating leases at September 30 are as
follows:
I                               Estimated Operating Lease Commitments as of September 30
                                                          (dollars iri thousands)
                                                                                                                                              I
                                           2003                                                               2002
      Fiscal     Facilities                                                          Facilities
    Year          Space         Vehicles          Other               Total           Space         Vehicles         Other         Total
      2003          $      -      $       -           S    -           $      -           6,355         1,154             93         7,602
      2004              7,070         1,131            172                 8,373          6,885         1,014             72         7,97 1
      2005              7,363         1,162            174                 8,699          7,463         1,033             67         8,563
      2006              7,668         1,193            176                 9,037          8,094         1,056             65         9,215
      2007              7,955         1,226            178                 9,389          8,783         1,08 1            57         9,92 1
      2008              8.315         1,26 1           181                 9,757              -               -            -             -

    Total          $38.401        $5.973             $BSl$45.255$37.580=                                               mt!         %43.272


NOTE 9 - WORKERS' COMPEiVSS4TIO:V
The Corporation's actuarial liability for future workers' compensation benefits (FECA) was $12,506 thousand and
$1 1.521 thousand as of September 30, 2003 and 2002, respectively. The amount includes the expected l~abilityfor
death, disability. medical, and miscellaneous costs for approved compensation cases. The actuarial liability is
determined using a method that utilizes historical benefit payment patterns related to a specific incurred period to
predict the ultimate payments related to that period. Consistent with past practice, these projected annual benefit
payments have been discounted to present value using the Office of Management and Budget's economic
assumptions for 10-year Treasury notes and bonds.


,VO TE I 0 - IVET POSI TIOK
'The reported net posit~onconsists of unexpended appropriations and cumulative results of operations (cumulative
results of operations represents the differences between revenues and expenses since the Corporation's inception).
Component balances are separately n~aintainedfor the Gift Fund, Trust Fund and Appropriated Fund.


                                       Net Position by Fund Balance Components
                                                   (dollars in thousands)

I                                              As of September 30,2003                                                             I
I                                                                                           Appropriated                           I
                                                     Gift Fund          Trust Fund             Fund                  Total
    Unexpended appropriations
                 .. .                                       $    -             $       -        $665,353              $665.353
    Cumulative results of operations                            650                1,42 1        (191037)              ( 16,966)
    Total Net Position                                      iBs!               %1.421             %6.16.316


                                       Net Position by Fund Balance Components
                                                   (dollars in thousands)

                                                  As of September 30,2002
                                                                                            Appropriated
                                                     Gift Fund          Trust Fund             Fund                  Total
    Unexpended~appropriations                               $    -             $       -        $807,379              $807,379
    Cumulative results of operations                            649                1,957         (17.558)              (14,952)
    Total Net Position                                      %649               $1.957             2!JE%u              $Ze29tZ
NOTE I 1 - APPROPRIATZOIVS RECEIVED BY THE TRUST FUND
Fiscal 2003 appropriations received by the Trust Fund were $99.35 million (composed of $100 d l i o n , less the
$650 thousand Trust portion of the rescission to NCSA per Public Law 108-7). The Trust portion of the NCSA
rescission was transferred back to NCSA, reducing the net amount of appropriations received by the Trust Fund
during fiscal 2003. No appropriations were received for the Trust Fund for fiscal 2002.


NOTE I2 - E,YPENSES
Using an appropriate cost accounting methodology, the Corporation's expenses have been allocated among its major
programs.

        The AmeriCorps (AIC) responsibility segment includes grant expenses, as well as direct and allocated
        personnel and administrative costs, for VISTA, NCCC, State & National, and AmeriCorps recruitment
        The National Senior Service Corps (NSSC) responsibility segment includes grant expenses, as well as
        d~rectand allocated personnel and administrative costs, for the Foster Grandparent Program, Senior
        Companions Program, and the Retired and Senior Volunteer Program.
        The Learn & Serve America (L&S) responsibility segment includes grant expenses, as well as direct and
        allocated personnel and administrative costs, for the Learn & Serve America Program, the President's
        Student Service Challenge, and National Service Leader Schools.
        The National Service Award line item consists of the Corporation's estimated expense for education
        a~vasdsbased on the increase in its service award liability during the year, interest forbearance costs on
        qualified student loans during the period members perform community service, as well as disbursements
        for the President's Freedom Scholarship Program. No indirect costs have been allocated to this line item.
        The Corporation's annual appropriation includes various Congressionally Earmarked G r a n t s . No
        ~ n d ~ ~costs
                  e c t ha1.e been allocated to these grants.
        The Corporation has reimbursable agreements with state agencies whereby the Corporation awards and
        administers grants to a list of grantees selected and funded by the State. No indirect costs have been
        allocated to these grants.
        The Office of Inspector General (OIG) receives a separate appropriation. No indirect costs have been
        allocated to the OIG.

The costs of operating the Corporation's Volunteers in Service to America (VISTA) and National Civilian
Conlrnunity Corps (NCCC) grant programs and providing administrative support for Trust Fund operations are
included in the operating expenses of the Corporation. The largest component of total expense is grant funds
expended.


                  Components of G r a n t Funds Expended for the years ended September 30
                                             (dollars in thousands)
                                                                        2003                 2002
 Domestic Volunteer Service Act Programs                                   $23 1,442            $188,505
 National and Community Service Act Programs                                 352,446              337,569
 Earmarked Grants
    Congressionally Earmarked Grants                             $26,688               $23,944
    DVSA State Grants                                               1.21 1                 75 1
 Total Earmarked Grants                                                       27,899               24,695
 Total Grants Expense                                                          %611.787                    sz&z@I
                          Expenses by Type for the year ended September 30,2003
                                          (dollars in thousands)
                                                                                   Earmarked
                 Tvne                       AIC        NSSC       L&S      OIG       Grants    Total

Grant and Related Expense
  Grant funds expended
  VISTA & NCCC stipends & benefits
  Service award expense
     Total Grant and Related Expense

Administrative Expense
  Federal employee salaries & benefits
  ..
   1 ravel 8: transportation
  Rent, communications, & utilities
  Program analysis & evaluation
  Printing & reproduction
  Other services
  Supplies & materials
  1 . 0 s on disposition of assets
  Ilepreciation &r amortization
  Had debt
  Other
       Total Administrative Expense          74,669    14,846     5,313    4.228           -   99,056
Total Expenses by Type                    $544.204-%70.974$4.228                    $27.899-


                          Expenses by Type for the year ended September 30,2002
                                          (dollars in thousands)
                                                                                   Earmarked
                 TYpe                       A/C        NSSC       L&S      OIG       Grants    Total
Grant and Related Expense
  Cirant funds expended
  VISTA & NCCC stipends 8: benefits
  Service award expense
      Total Grant and Related Expense

Administrative Expense
  Federal employee salaries & benefits
  Travel & transportation
  Rent, communications, & utilities
  Program analysis & evaluation
  Printing & reproduction
  Other services
  Supplies & materials
  Loss on disposition of assets
  Depreciation & amortization
  Bad debt
  Other                                    -787 -808 -6 17
     Total 4dministrative Expense            74,505     10,217    5,185    5,006           -   94,913
Total Expenfies by Type                   $556.231%196.382%62.495%5.006              %24.695%844.809
NOTE 13 - NATIONAL SERVICE AlVARD EXPENSE
Members participating in the Trust programs are eligible to earn a service award to pay for qualified education
expenses. The Trust also pays interest forbearance costs on qualified student loans during the period members
pzrform community service. The Corporation estimates the expense for national service awards based on the
increase in its cumulative service award liability during the year (see Note 6). The total service award liability a s of
September 30, 2003 and 2002, respectively, has been adjusted to reflect the fact that earned awards are not always
used

I                      National Service Award Expense for the years ended September 30
I                                           (dollars in thousands)
                                                                                    2003                    2002
    Estimated educat~onawards                                                    $103.581               $126,206
    Esr~rnatedinterest forbearance                                                   2,102                  4,258
    President's Freedom Scholarship Program                                          2,895                  2,965
    National Service Award Expense                                                       $109.578       %133.429


NO TE I if- I,YCREASE/(DECREASE) IN UNEXPENDED A PPROPRIA TIONS, NET

                  Increase/(Decrease) in Unexpended Appropriations, Net as of September 30
                                            (dollars in thousands)
                                                                             2003                         2002
    Increases:
    Appropriations received, net of trust                                         $691,855              $735.875
    Total Increases                                                                69 1,855              735,875

    Decreases:
    Appropriated capital used, net of trust                                       (768,005)             (705,266)
    Rescinded appropriations, net of trust                                         (53,143)                  ( 167)
    Canceled appropriations                                                        ( I 2,7331            (12.218)
    Total Decreases                                                               (833,881)             (7 17,65 1)
    Increase/(Decrease) in Unexpended Appropriations, Net                        sx&u&m                %18.224


NOTE 15 - CONTINGENCIES


The Corporation is a party to various routine administrative proceedings, legal actions, and claims brought by o r
against it, including threatened or pending litigation involving labor relations claims, some of which may ultimately
result in settlements or decisions against the Corporation. In the opinion of the Corporation's management and legal
counsel, there are no proceedings, actions, or claims outstanding or threatened that would materially impact the
financial statements of the Corporation.


Certain legal matters to which the Corporation is named a party may be administered and, in some instances,
litigated and paid by other Federal agencies. Generally, amounts paid in excess of $2.5 thousand for Federal Tort
Clainls Act settlements or awards pertaining to these litigations are funded from a special appropriation called the
Judgment Fund. Although the ultimate disposition of any potential Judgment Fund proceedings cannot be
determined, management does not expect that any liability or expense that might ensue would be material to the
Corporation's financial statements.
                        INDEPENDENT AIJDITORS' REPORT O N
                   INTERNAL CONTROL OVER FINANCIAL REPORTING


Lnspector General
Board of Ilirectors
Corporation for National and Cornrnun~tyService


We have audited the financial statements of the Corporation for National and Community Service
(Corporation) as of and for the year ended September 30,2003, and have issued our report thereon
dated October 3 1 , 2003. We conducted our audit in accordance w ~ t hauditing standards generally
aczepted in the United States of America and standards applicable to financial audits contained in
Government Auditing Stunciards, issued by the Comptroller General of the United States.

In planning and performing the September 30, 2003, audit, we considered the Corporation's internal
control over financial reporting by obtaining an understanding of the Corporation's internal control,
determining if internal control had been placed in operation, assessing control risk, and performing
tests of internal controls to determine our auditing procedures for the purpose of expressing an opinion
on the financial statements. We limited internal control testing to those controls necessary to achieve
the objectives described in Cover-nn~etltA~rriitiiigS1~1nrf~1r.d~.
                                                               The objective of our audit was not to
provide assurance on the Corporation's internal control. Consequently. we do not provide an opinion
on internal control over financial reporting.

Our consideration of internal control over financial reportmg would not necessarily disclose all matters
in the internal control over financial reporting that might be reportable conditions. Under standards
issued by the American Institute of Certified Public Accountants, reportable conditions are matters
coming to our attention relating to significant deficiencies in the desigw or operation of the internal
controls o\.er financial reporting that, in our judgment, could adversely affect the Corporation's ability
to record, process, summarize, and report financial data consistent with the assertions by management
in the financial statements. Material weaknesses are reportable conditions in which the design or
operation of one or more of the internal control components does not reduce to a relatively low level
the risk that misstatements, in amounts that would be material in relation to the financial statements
being audited, may occur and not be detected within a timely period by employees in the normal
course of performing their assigned functions. Because of inherent limitations in any internal control,
mlsstatemcnts due to error or fraud may occur and not be detected.

We noted one matter, described in Exhiblt 1 , involving internal control over financial reporting and its
operation that we consider to be a reportable condition. We do not consider this reportable condition
to be a material weakness. The status of prior-year reportable conditions is described in Exhibit 2.




                                              tsdn'iF/wf 1981
--
                            333 North Fairfax Street + Suite 101+ Alexandria, Virginia 22314
                 703/836/6701+ xi 703/836/094 1 + wv.c.or'l'om:\.coM+ rlcc~rr'ox@co.n.o~a~~\.cc~~
We also noted other matters involving internal control and its operation that we will report to Corporation
management in our management letter, which will be issued as OIG Audit Report 04-02.

We provided a draft of this report to Corporation management. The Corporation's response to our report
is included as Appendix A.

This audit was performed pursuant to the Government Corporation Control Act, and IS intended solely for
the information and use of the United States Congress, the President, the Director of the Office of
Management and Budget, Comptroller General of the United States, the Corporation and its Inspector
General, and is not intended to be, and sho~ildnot be, used by anyone other than these specific parties.

COTTON & COMPANY LLP



Alan Rosenthal, CPA
Partner

October 3 1, 2003
Alexandria, Virginia
                                         EXHIBIT I
                 CORPORATIOK FOR NATIONAL AND COMiVIUNITY S E R V I C E
                              R E P O R T A B L E CONDITION
                                  S E P T E M B E R 30,2003


G r a n t s Management

The Corporation for National and Community Service (Corporation) a\+ardsNational and Community
Service Act (NCSA) and Domestic Volunteer Service Act (DVSA) grants to State and local governments,
institutions of higher education. and other not-for-profit organizations. The Corporation expends the
majorit) of its appropriated funds on grants, and grant activities result in the most significant components
of the Corporation's finaricial statements. I t is critical that the Corporation monitor grantee activity
closely to ensure that grantees are complying with applicable laws and regulations related to the
administration of grant awards. Grantees are required to expend funds only for allowable costs and
provide periodic reports to the Corporation to demonstrate programmatic financial compliance with the
terms o f their grant agreements. The Corporation is required to conduct visits of its grantees and State
commissions to ensure that grantees are complying with their grant agreements. and that State
commissions are performing their prescribed duties.

The following section discusses weaknesses noted in the Corporation's internal controls over grants
management.

lnlprovement Needed In Monitoring Grantee Activities

The Corporation has established formal grantse-monitori~~g       procedures that include periodic site visits of
grantees. The site visits are designed to obtain. revie\v, and issue management decisions on audit findings
reported by the OIG, as well as non-Federal auditors in OMB Circular A-I33 single audit reports. Site
\,isits are also utilized to hold training conferences for grantee personnel, open lines of communication
between program managers and grantees, and to conduct the grant closeout process. For DVSA grants,
the Corporation utilizes the Senior Corps Compliance Monitoring Handbook. For NCSA grants, the State
Commission Administrative Standards review is the primary tool for monitoring State commission
grantees. The Corporation also has a separate monitoring tool for National Direct grantees.

During Fiscal Year 2003, we noted that the Corporation did not consistently employ site visits to monitor
grantee activities. Specifically:

                 The Corporation was not in compliance with State Administrative Standards Policies that
                 require site visits every three years. The Corporation did not conduct 15 of 52 State
                 Administrative Standards visits that should have been conducted within the prescribed
                 three year period. Of these 15, six missing site visits were noted by the prior-year
                 auditor.

                 The Corporation was not able to visit all of the 1,400 National Senior Service Corps
                 grantees over the past 3 years, as required in the Monitoring Handbook. Of these, 53
                 grantees have not been visited within 3 years.

                 Site visit reports were not always provided to grantees within the required 20 day period
                 following site visits. Of the 606 site visits conducted during F Y 2003, 189 site visit
                 reports were provided to the grantees in excess of 70 days.
              Progress reports, which describe program status and milestone achievement from
              grantees. were not always submitted to State offices as required.



We recommend that:

             The Corporation considers reevaluating its policies and procedures regarding State
             Administrative Standards visits to implement a risk-based approach to conducting site
             visits and comply with those policies and procedures.

      rn     State offices utilize grant tracking capabilities in eGrants in order to assist staff in
             tracking xsults of monitoring visits and maintaining monitoring visit schedules for
             Senior Corps grantees in order to comply with policies and procedures related to
             conducting site visits.

             Corporation staff provide timely feedback from site visits to grantees. Site visit reports
             should be furnished to grantees within 20 days of the visit. Corporation management
             should include statistics on timeliness of site visit report completions as performance
             results in the evaluation of their staff.

              State offices closely monitor the status of progress reports and diligently follow up on
              delinquent reports.
                                           EXHIBIT 2
                    S T A T U S OF PRIOR-YEAR REPORTABLE CONDITIONS
                                       SEPTEMBER 3 0 , 2 0 0 3



FY 2002 Finding                               Type                         F Y 2003 Status
Monitoring of Grantee Activities   7001 : Reportable Condition   Monitoring of grantee activities
                                   2002: Reportable Condition    continues to require improvement.
                                   2003: Reportable Condition

Improvenlent Needed in Grant       1002: Reportable Condition    Closed.
Approval Policies and Procedures
                                           auditors advisors




                           INDEPENDENT AUDITORS' REPORT ON
                        COMPLIANCE WITH LAWS AND REGULATIONS


Inspector General
Board of Directors
Corporation for National and Community Service


Wc have audited the financial statements of the Corporation for National and Community Service
(Corporation) as of and for the year ended September 30, 2003, and have issued our report thereon
dated October 3 1, 2003. We conducted our audit in accordance with auditing standards generally
accepted in the United States of America and standards applicable to financial audits contained in
Governmerzt Azrdititly Stat~larrls,issued by the Comptroller General of the United States.

As part of obtaining reasonable assurance that the Corporation's financial statements are free of
material misstatement, we performed tests of its compliance with certain provisions of laws and
regulations, noncompliance with which could have a direct and material effect on the determination of
financial statement amounts. Providing an opinion on compliance with those provisions was not,
however, an objective of our audit and, accordingly, we do not express such an opinion. The results of
our tests d w l o s e d no instances of noncompliance that are required to be reported under Goverrl~mwt
Az~ditingStunrlarrls.

This audit was performed pursuant to the Government Corporation Control Act, and is intended solely
for the information and use of the United States Congress, the President, the Director of the Office of
Management and Budget, Comptroller General of the United States, the Corporation and its Inspector
General, and is not intended to be, and should not be, used by anyone other than these specific parties.

COTTON & COMPANY LLP



Alan Rosenthal, CPA
Partner

October 3 1, 2003
Alexandria, Virginia




                             333 North Fairfax Street + Suite 101 + Alexandria, Virginia 22314
                 703/836/67C 1+ I::W 703/836/094 1+ W W W . C ~ T ' I ~ N ~ I ~ A . C+CDCCI~TO~\;@CO~TONCP..\.COM
                                                                                        ~M
                                                          25
                      APPENDIX A

CORPORATION FOR NATIONAL AND COMMUNITY SERVICE RESPONSE
                                     QzPory5hAL &
                                     COMMUNITY
                                     SERVICE-



                                          November 13,2003

The Honorable J. Russell George
Inspector General
Corporat~onfor Natlonal and
  Conin~unityServ~ce
S u ~ t e830
\Vashington, D.C. 20525

Dear hlr. George:

        Thank you for the opportunity to comment on the draft report on the audit o f the
Corporation's fiscal 2003 financial statements. I am pleased that the Corporat~oncontmues to
receive a clean opinion on its financial statements. The report reflects the hard work over the past
year by staff to Improve the Corporat~on'soperations and regain the trust of Congress.

         While pleased with these results, the Corporation recognizes that more needs to be done
and is committed to establishing a work env~ronmentthat strives for continuous ~mprovementin
~ t programs.
    s         To lead this effort, the Corporat~onhas organized a Management Improvement
Tram made up of a mult~dlsclplinaryteam of Corporat~onstaff. The team is revlewng all facets
ot'the Corporation's operations and is working to achieve greater accountability and efficiency In
the agency and its programs, mcluding its grants management. The a u d ~also
                                                                           t   makes several
recommendations on how the Corporation can mprove the monitoring of grantees. The
Corporatlon concurs with these recommendations and ~villimplement them over the course of the
next year.

                                          Sincerely,




                                          '4cting Chiej'Evccufive OfJicer an
                                            chief operating Officer-        C-"




                           1201 New York Avenue, NW * Washington, DC 20525
                                 202-606-5000 * www.nationa1service.org
                           Senior Corps   *   AmeriCorps * Learn and Serve America
